OIG Investigative Reports Press Release, Milwaukee, WI. 2/29/2012 - Pastor Charged in Federal Court With Stealing Government Funds from Excel Academy
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN District of Wisconsin
NEWS
Pastor Charged in Federal Court With Stealing Government Funds from Excel   Academy
FOR IMMEDIATE RELEASE
February 29, 2012
United States Attorney James L. Santelle has announced that a federal grand   jury has indicted Gregory L. Goner (age: 40) of Franklin with various theft and   fraud counts.  The defendant, who is the pastor at Spirit Governed Baptist   Church (SGBC) located at 3223 W. Lloyd Street in Milwaukee, operated Excel   Academy, a Milwaukee choice school, from 2004 through the spring of 2010. Excel   Academy was supported by government funds including more than $100,000 per year   in federal funds from the United States Departments of Education and   Agriculture.
The indictment alleges that Goner used Excel’s funds for various purposes   unrelated to the educational mission of the school. Specifically, Counts one   through four of the indictment charge that the defendant misapplied Excel’s   funds for various non-educational purposes including his purchase of two   apartment buildings, paying a deacon at SGBC, and needlessly leasing space at   SGBC.  Each of those counts is alleged to be in violation of Title 18, United   States Code, Section 666(a)(1)(A).  If convicted, Goner is subject to a fine of   not more than $250,000, imprisonment for not more than 10 years, or both, plus a   mandatory $100 special assessment and not more than 3 years of supervised   release on each count.
Count five charges Goner with wire fraud in violation of Title 18, United   States Code, Section 1343, for obtaining more than $313,000 in loan funds to   purchase apartment buildings at 77th and Hampton in Milwaukee by submitting a   false residential rental contract in support of his loan application. If   convicted, he is subject to a fine of not more than $250,000, imprisonment for   not more than 20 years, or both, plus a mandatory $100 special assessment and   not more than 3 years of supervised release.
This case was investigated by Special Agents from the Federal Bureau of   Investigation and the Department of Education.  It is being prosecuted by   Assistant United States Attorney Mel S. Johnson.
The public is cautioned that an indictment is merely an accusation and the   defendant is presumed innocent until and unless proven guilty.
#    #   #   #   #Top
Printable view
Last Modified: 03/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov